APPENDIX A
NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION
No. 18-1131
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
January 14, 2019
In Re: FRANK J. LAWRENCE, JR.,
Petitioner-Appellant.
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE WESTERN DISTRICT
OF MICHIGAN
OPINION
BEFORE: COLE, Chief Judge; SUHRHEINRICH and
MOORE, Circuit Judges.
COLE, Chief Judge. Petitioner-Appellant Frank
J. Lawrence, Jr. seeks review of the district court's
decision denying him admission to the bar of the
Western District of Michigan. Because the district
court did not abuse its discretion, we affirm.
I.
Lawrence graduated from an accredited
Michigan law school and passed the Michigan bar
exam in 2001. See Lawrence v. Chabot, 182 F. App'x

1a

442, 445 (6th Cir. 2006). As part of Lawrence's
application for a license to practice law in Michigan,
he truthfully noted that he had a pending
misdemeanor charge for interfering with a police
officer in violation of a Bloomfield Township
ordinance. Id. The facts giving rise to the
misdemeanor charge are as follows:
Lawrence's conviction was for circumstances
that took place on August 19, 2000.
Lawrence's brother, Christian Lawrence,
called 911 to report that his father, Frank
Lawrence, Sr., had struck him with a board. .
. . The police arrived at the house and looked
in the doorway to see that Christian was in
the home holding his eye. Christian stepped
outside where paramedics tended to him.
Police next ordered Lawrence's father to exit
the home, at which point he was arrested. . .
. An officer called to Lawrence to tell him to
step outside the home[.] . . . Lawrence
refused to exit, stating, "Fuck you," in
addition to citing some case law, and
demanding that the officers obtain a warrant
before entering. The officer informed
Lawrence of the need to check for additional
suspects, victims, or evidence, but Lawrence
refused to allow entry into the home, and
blocked the door by standing in front of it.
The officer then pulled Lawrence out onto
the porch . . . [and] Lawrence was . . . placed
under arrest.

2a

Lawrence v. 48th Dist. Court, 560 F.3d 475, 477 (6th
Cir. 2009). As a result of the then-unresolved charge,
Lawrence's application for a Michigan law license was
put on hold pending the conclusion of the criminal
matter. In April of 2002, a jury convicted Lawrence of
violating the Bloomfield Township ordinance. 48th
Dist. Court, 560 F.3d at 478. In June of the same year,
he was sentenced to twelve months of non-reporting
probation and 500 hours of community service. Id.
Once the criminal charge was resolved, the
state bar began processing Lawrence's application.
Because of "various concerns regarding [Lawrence's]
litigation history and financial difficulties," the State
Bar of Michigan's Character and Fitness Committee
referred his application to a district committee to
conduct an interview. Chabot, 182 F. App'x at 446.
Lawrence filed a motion to adjourn the interview,
arguing that violations of township ordinances should
not be considered criminal cases. His motion was
denied, and Lawrence thereafter withdrew his bar
application. Id. He then filed a complaint in federal
district court naming a variety of defendants,
including the Michigan Board of Law Examiners (the
"Board"), the State Bar of Michigan (the "State Bar"),
and various officials of the Board and the State Bar.
See generally id. Lawrence sought declarations that
certain state bar rules were unconstitutional and
alleged that the Board and the State Bar violated his
First and Fourteenth Amendment rights in processing
his 2001 application. The district court dismissed
Lawrence's claims and this court affirmed. Id. at 445.

3a

In 2003, Lawrence began operating a website
called "StateBarWatch." Lawrence v. Welch, 531 F.3d
364, 366 (6th Cir. 2008). On the website, Lawrence
criticized the State Bar and the Board. Id. For
example, Lawrence accused the State Bar's executive
director of plagiarism, alleged that various individuals
made false or contradictory statements to courts, and
stated that one member of the Board had previously
been arrested and convicted for drunk driving.
Lawrence v. Berry, et al., Case No. 5:06-cv-134,
Compl., R. 1, PageID 36-37 (Sept. 8, 2006 W.D. Mich.).
Lawrence also posted on the website that he picketed
the law office of a Board member—who was involved
in one of Lawrence's adverse character and fitness
determinations—with a sign that said, "I do not
recommend [the Board attorney]." Id. at PageID 37.
He updated the website at various times, including to
make an assertion that "widespread dishonesty and
corruption" existed within the State Bar. Lawrence v.
Raubinger, et al., Case No. 1:10-cv-467, Am. Compl.,
R. 19, PageID 202 (Jan. 18, 2018 W.D. Mich.).
Lawrence reapplied for admission to the
Michigan bar in 2004. See Welch, 531 F.3d at 366. As
part of the application process, he was interviewed by
three members of a State Bar District Character and
Fitness Committee: David H. Baum, Randy A.
Musbach, and Sonal Hope Mithani. Id. During the
interview, Lawrence stated "that he had little respect
for the Michigan state court system, and he expressed
the view that the federal courts are the 'guardians of
the constitution' and that the Michigan state court
system fails adequately to protect individuals'

4a

constitutional rights." Id. After the interview, the
committee issued a report and recommendation to the
State Bar stating: "The Committee does not believe
that [Lawrence] has shown by clear and convincing
evidence that he currently possesses the requisite
good character and fitness to be recommended to the
practice of law in this state." Id. at 366-67. The
committee expressed concern about licensing
"someone who, even before he has handled his first
case as a member of the bar, has effectively written off
such a huge component of the justice system." Id. at
367.
After the committee issued the report and
recommendation, Lawrence engaged in a series of
actions:
Lawrence made several communications to
the employers of the members of the District
Committee. He telephoned the University of
Michigan Law School, where Baum was the
Assistant Dean of Student Affairs. Lawrence
told Baum's assistant that he wanted to
address the student bar association to let
them know how poorly he thought he had
been treated. Lawrence also sent a letter to a
board member of the legal services
organization for which Mithani was a
director. In the letter, Lawrence stated how
poorly he had been treated and how Mithani
had manipulated Lawrence's stated views
about the state court system. Id. at 367.

5a

The report and recommendation was sent
directly to the Board, and the Board voted to accept it.
Id. Lawrence thereafter requested a hearing, which
was held in April 2006. Id. At the hearing, Lawrence
was questioned about his communications with
Baum's and Mithani's employers, and he denied that
they were inappropriate. Id. In June 2006, the Board
issued an opinion denying Lawrence's application for
admission. Id. Soon after, Lawrence sent a letter to a
member of the Michigan Civil Rights Commission,
discussing what he believed to be the hypocrisy of one
of the Board members involved in denying his
admission. The letter stated in part:
I have noticed that this type of hypocrisy is
commonplace among many black civil rights
activists. They believe that they have the
right to speak out, but for everyone else,
there exists a double standard. I truly
believe that if I were black, I never would
have been treated this way.
Berry, Letter, R. 1-3, PageID 25.
A few months later, in September 2006,
Lawrence filed a lawsuit in federal district court,
naming Baum, Musbach, and Mithani as defendants,
along with the executive director of the State Bar and
the president of the Board. See generally Welch, 531
F.3d 364. He argued, among other things, that the
denial of his bar application violated his First and
Fourteenth Amendment rights and sought declaratory

6a

and injunctive relief requiring defendants to issue him
a license to practice law. The district court dismissed
Lawrence's claims and this court affirmed. Id. at 36667.
Lawrence filed another lawsuit in federal
district court against various members of the Board in
2009, alleging that he had filed a third application for
admission to the Michigan bar, which was pending,
and describing his complaint as a "protective action"
challenging the potential denial of his third
application and any future fourth application. See
Lawrence v. Parker, et al., No. 17-1319, Order, p. 1-2
(6th Cir. Dec. 22, 2017). The same year, the Board
held a hearing regarding his third application, and
before the hearing took place, Lawrence mailed
hundreds of questionnaires to the Board members'
former clients and acquaintances, seeking any
information that would "call into question the [Board]
members' ability to serve the public." Raubinger, Am.
Compl., R. 19, PageID 201. Subsequently, Lawrence's
third petition was denied, and he filed a fourth.
Parker, No. 17-1319, Order, p. 2. In regard to his most
recent application, the State Bar and the Board
certified Lawrence's good moral character to practice
law, but refused to certify his educational fitness
because his bar exam score became stale after three
years. Id. Lawrence sought to amend his 2009 case to
address the constitutionality of Michigan's rule
regarding stale scores, and the case is currently
pending before the Western District of Michigan. See
generally Parker, Case No. 1:09-cv-95 (W.D. Mich.
Feb. 6, 2009).

7a

Also in 2009, Lawrence filed his first
application for admission to practice law in the United
States District Court for the Western District of
Michigan. See In re: Frank J. Lawrence, Jr., No. 091636, Order, p. 1 (6th Cir. Dec. 2, 2009). The Western
District of Michigan denied his petition in accordance
with local rules because Lawrence had not first been
admitted to practice law in any state. Lawrence
appealed his denial and this court affirmed. Id. at 2.
Lawrence has since been admitted to practice law in
the District of Columbia. Lawrence alleges that he has
also been granted admission to the United States
Courts of Appeals for the Sixth, Seventh, Tenth,
Eleventh, and District of Columbia Circuits, as well as
the United States District Courts for the Eastern
District of Michigan and the Northern District of
Illinois, and the United States Tax Court.
On October 5, 2017, Lawrence filed his second
application for admission to practice law in the
Western District of Michigan—the subject of this
appeal. Because of Lawrence's criminal conviction, his
application was forwarded to the Chief Judge of the
Western District of Michigan. According to Lawrence,
a State Bar investigator told him that the Chief
Judge's law clerk left a message for the investigator
that day, seeking information contained within the
State Bar's confidential files. Lawrence alleges that he
then called the clerk, who told him that the Chief
Judge instructed her to gather information about
Lawrence.

8a

The Chief Judge appointed a three-judge panel
to review Lawrence's application. The panel held a
hearing on December 13, 2017, at which Lawrence
appeared with counsel. Before the hearing, Lawrence
sent a letter requesting: (1) that the Chief Judge's
clerk be required to attend the hearing and provide
testimony regarding her alleged instruction to obtain
confidential information from the State Bar; and (2) a
document "akin to a bill of particulars" providing the
precise reasons why Lawrence's application was not
administratively approved by the Chief Judge. The
panel did not respond to Lawrence's letter.
At the hearing, the panel denied Lawrence's
request for the clerk to testify. On February 2, 2018,
the three-judge panel issued a memorandum opinion
and order denying Lawrence's petition for admission.
Lawrence alleges that Michigan licensing officials
thereafter revoked his character clearance for the
state bar, citing the panel's decision. Lawrence timely
appealed the panel's order.
II.
We review a denial of an application for
admission to practice before a district court for abuse
of discretion. Application of Mosher, 25 F.3d 397, 400
(6th Cir. 1994). A finding of abuse of discretion
requires "a definite and firm conviction that the trial
court committed a clear error of judgment." Davis by
Davis v. Jellico Cmty. Hosp. Inc., 912 F.2d 129, 133
(6th Cir. 1990) (citations omitted). A court "abuses its
discretion if it bases its ruling on an erroneous view of
the law or a clearly erroneous assessment of the

9a

evidence." Merritt v. Int'l Ass'n of Machinists &
Aerospace Workers, 613 F.3d 609, 619 (6th Cir. 2010).
At the outset, we reject Lawrence's argument
that it was reversible error for the district court to
deny his request to have the Chief Judge's clerk testify
at his hearing. Such testimony is of no bearing on
Lawrence's character, the subject of the hearing. We
thus decline to remand for further fact-finding on this
issue, and similarly decline to refer the Chief Judge to
the Circuit Executive's Office.
We now turn to the heart of the appeal, the
district court's decision denying Lawrence admission
to its bar. A district court has both statutory and
inherent authority to control the membership of its
bar. In terms of statutory authority, "Congress has
provided in 28 U.S.C. § 2071 that the district courts
may prescribe rules for the conduct of their business.
It is clear from 28 U.S.C. § 1654 that the authority
provided in § 2071 includes the authority of a district
court to regulate the membership of its bar." In re
Desilets, 291 F.3d 925, 929 (6th Cir. 2002) (quoting
Frazier v. Heebe, 482 U.S. 641, 652 (1987) (Rehnquist,
J., dissenting)); see also Fed. R. Civ. P. 83 ("After
giving public notice and an opportunity for comment, a
district court, acting by a majority of its district
judges, may adopt and amend rules governing its
practice."); Greer's Refuse Serv., Inc. v. BrowningFerris Indus. of Delaware, 843 F.2d 443, 446 (11th Cir.
1988) ("[F]ederal district courts have clear statutory
authority to promulgate rules governing the admission
. . . of the attorneys who practice before them.");
Brown v. McGarr, 774 F.2d 777, 782 (7th Cir. 1985)

10a

("[E]very federal court which has construed 28 U.S.C.
§§ 1654, 2071 and Fed. R. Civ. P. 83 has held that they
permit a federal district court to regulate the
admission of attorneys who practice before it.")
(citations omitted).
The Western District of Michigan has acted
under its statutory authority and prescribed such
rules. Relevant here, Local Rule 83.1(c) provides that
if an applicant has been convicted of a crime, "the
Chief Judge shall make an independent determination
as to whether the applicant is qualified to be
entrusted with professional matters and to aid in the
administration of justice as an attorney and officer of
the [c]ourt." W.D. Mich. Local Civ. R. 83.1(c)(ii) (Feb.
1, 2018). The rules further provide that the Chief
Judge "may grant or deny the application for
admission" or "[a]lternatively . . . refer the application
to a three-judge panel[.]" W.D. Mich. Local Civ. R.
83.1(d)(iv).1
In addition to statutory authority, it has long
been settled that district courts have "inherent
authority to deny an attorney's application for
admission to practice before the district court."
Application of Mosher, 25 F.3d at 399-400. As early as
1824, the Supreme Court held that federal courts have
the power to control admission to their bar: "The
power is one which ought to be exercised with great
caution, but which is, we think, incidental to all
Courts, and is necessary for the preservation of
1

The local rules were substantially revised effective
January 1, 2019. Attorney admission to practice is now found at
Local Gen. R. 2.1.

11a

decorum, and for the respectability of the profession."
Ex parte Burr, 22 U.S. 529, 531 (1824); see also
Chambers v. NASCO, Inc., 501 U.S. 32, 43 (1991)
("[T]he Court has held that a federal court has the
power to control admission to its bar and to discipline
attorneys who appear before it."). "Accordingly, the
exercise of the authority to admit, deny, or suspend an
attorney is left to the discretion of the district court."
Stilley v. Bell, 155 F. App'x 217, 219 (6th Cir. 2005)
(citations omitted).
But merely because a court has authority to
regulate its bar does not mean that its authority is
without limitation. While a court can require
qualifications such as good moral character before
admitting an applicant to the bar—as virtually all
states, and the Supreme Court, do—any qualification
"must have a rational connection with the applicant's
fitness or capacity to practice law." Schware v. Bd. of
Bar Exam. of State of N.M., 353 U.S. 232, 239 (1957);
see also Law Students Civil Rights Research Council,
Inc. v. Wadmond, 401 U.S. 154, 160 (1971). Obviously
an applicant cannot be excluded merely because of his
political affiliation, religion, race, or gender. See
Schware, 353 U.S. at 239. We think it is obvious too,
that a nearly 17-year-old misdemeanor conviction
cannot be the sole basis of denial. See In re Dreier, 258
F.2d 68, 69 (3d Cir. 1958) ("[W]e think the court erred
in giving controlling weight to the appellant's previous
convictions and little or no weight to the evidence of
his subsequent rehabilitation and present good moral
character.").

12a

Instead, the court must balance the "competing
interests at stake in a decision to admit an attorney to
practice before a district court." Stilley, 155 F. App'x
at 219-20. "On the one hand, there are the interests of
the applicant attorney in being able to practice his
profession and the interests of clients in being
represented by counsel of their choosing." Application
of Mosher, 25 F.3d at 400. And on the other hand:
[T]he public interest requires the court to
consider whether the applicant attorney will
promote the administration of justice. "[I]t is
extremely desirable that the respectability of
the bar should be maintained, and that its
harmony with the bench should be
preserved." [Burr, 22 U.S. at 530.] Thus, a
district court should consider whether the
applicant attorney possesses the professional
and ethical competence expected of an officer
of the court.
Id.
We cannot say that the district court abused its
discretion in balancing these interests here. The
three-judge district court panel first discussed
Lawrence's previous criminal conviction, and correctly
noted that it was a number of years ago, but found
that his conduct following the conviction, including his
behavior before the panel, was inconsistent with what
is expected of an officer of the court. The panel had the
opportunity to observe Lawrence's demeanor during
the hearing and found that he was not credible in

13a

discussing his criminal conviction. Specifically, the
panel found that he too "easily offer[ed] exculpatory
information, while struggling to recall basic facts
concerning his offense conduct." (Order, R. 6, PageID
136-37.)
And the district court did not rely solely on
Lawrence's criminal conviction in reaching its
decision. The panel considered Lawrence's conduct
since the conviction and in doing so did not make a
clear error of judgment. Lawrence has a history of
personally attacking decisionmakers whose decisions
he does not like. After the District Character and
Fitness Committee issued a report recommending that
he be denied admission, Lawrence called the
University of Michigan—one of the committee
members' employers—complaining that he was
treated unfairly and asking to speak to students about
the committee member's conduct. He also wrote a
letter to a legal services organization—the employer of
another committee member—complaining about the
committee member treating him unfairly. And when
the Board issued an opinion denying him admission,
Lawrence sent a letter to a member of the Michigan
Civil Rights Commission to complain about one of the
Board members' alleged hypocrisy. When he became
upset with the way the Board handled his petition, he
picketed the law office of the president with a sign
that could discourage clients from retaining the Board
member's services.
And even before an adverse decision was
reached on his third application for admission into the
Michigan bar, Lawrence mailed hundreds of

14a

questionnaires to former clients and acquaintances of
the Board members on the committee responsible for
making a decision regarding his character and fitness,
attempting to dredge up negative information about
them. The district court acted within its discretion in
relying on these instances to conclude that Lawrence
"has a long history of engaging in inappropriate and
unprofessional conduct" that calls into question his
ability to be "entrusted with professional matters and
to aid in the administration of justice as an attorney
and officer of the [c]ourt." (Order, R. 6, PageID 142)
(quoting W.D. Mich. Local Civ. R. 83.1(c)(ii).)
The record is clear that the admission decision
is not based on the content of Lawrence's complaints
about the Board or State Bar officials, nor on his
decision to speak out against them. Instead, the panel
was concerned with the manner in which Lawrence
addressed his grievances. (Id. at PageID 141 ("The
relevant issue here is not whether he . . . enjoys a
First Amendment right to freedom of speech - of
course he does. . . . The [c]ourt is concerned, however,
with the manner in which he addressed his grievances
with [the Board and State Bar] officials.").) The
district court's concerns about how Lawrence
addresses his grievances are rationally related to his
fitness to practice law—if he seeks judicial misconduct
proceedings every time a judge makes a decision
adverse to his interests, or pickets the law offices of
opposing counsel who upset him, or posts disparaging
comments about lawyers with whom he disagrees, his
professional competency would be called into question.
Indeed, Lawrence admitted during his hearing that

15a

some of these past instances of misconduct
demonstrate less than good judgment. We are thus
satisfied that the district court did not abuse its
discretion in denying Lawrence admission.
Lawrence raises three primary arguments in an
attempt to persuade us to reverse the panel's decision.
First, he contends that it was error for the panel to
rely on past conduct that he did not have a chance to
address at the hearing. In support of this argument,
he quotes the panel's decision discussing two matters:
(1) the letter in which Lawrence stated if he were
black he would not have been treated this way, and (2)
certain of his website posts. But Lawrence did have a
chance to address the letter—in fact, he raised it at
the hearing. It was not error for the panel to look at
publicly available information to delve further into
this incident when Lawrence brought it to their
attention at the hearing. As for the website posts, the
record supports the panel's decision denying Lawrence
admission even if we do not consider the posts to
which he objects. The instances exhibiting poor
judgment discussed above were all mentioned at the
hearing and thus Lawrence had a chance to address
them. (See Hr'g Tr., R. 4, PageID 74-76 (picketing
Board member's law office); id. at PageID 78
(contacting University of Michigan); id. at PageID 81
(writing letter to legal services organization); id. at
PageID 81, 83 (writing letter to Civil Rights
Commission); id. at 87-88 (mailing questionnaires to
former clients and acquaintances of Board members).)
We therefore reject Lawrence's request to remand this
matter for further proceedings.

16a

Turning to Lawrence's second argument, he
objects to the panel's reliance on arguably stale
conduct in reaching its adverse decision. Lawrence
points out that the majority of the conduct discussed
in the panel's decision occurred years ago and
contends that since then he has been a "model citizen,"
as evidenced by his admission into the bars of various
courts. As an initial note, merely because "other courts
have admitted [Lawrence] to practice in their
jurisdictions" does "not compel the conclusion that the
Western District of Michigan abused its discretion in
not allowing [Lawrence] to practice there." Stilley, 155
F. App'x at 224. "[O]ne court's decision to admit an
applicant does not diminish another court's discretion
to refuse to do so." Id. As to the fact that the panel
considered conduct that is many years old, Lawrence
points to no authority finding that doing so amounts
to a clear error of judgment. And in any event, the
district court made clear that it also considered
Lawrence's conduct at the hearing in coming to its
ultimate conclusion, noting that Lawrence was more
interested in blaming others than accepting
responsibility for his actions and finding that his
statements that he has changed are not credible. Even
if we would reach a different conclusion reviewing
Lawrence's petition de novo—as it appears we did,
given that he is admitted in our court—we cannot say
the district court abused its discretion.
As for Lawrence's final argument, he contends
that the district court's decision was impermissibly
based on the exercise of his First Amendment rights.
It is, of course, axiomatic that Lawrence has a First

17a

Amendment right to criticize public officials. See, e.g.,
Rosenblatt v. Baer, 383 U.S. 75, 85 (1966) ("Criticism
of government is at the very center of the
constitutionally protected area of free discussion.").
But it is equally true that "the First Amendment does
not prohibit laws justified by a valid governmental
interest when those laws do not reflect an intent to
control the content of speech but rather incidentally
limit unfettered exercise of the right." Chabot, 182 F.
App'x at 453 (citing Konigsberg v. State Bar of Cal.,
366 U.S. 36, 50 (1961)). And as the Supreme Court
stated in reference to character qualifications for a
state bar, "it is difficult, indeed, to imagine a view of
the constitutional protections of speech . . . which
would automatically . . . exclude all reference to prior
speech . . . on such issues as character, purpose,
credibility, or intent." Konigsberg, 366 U.S. at 51; see
also Wadmond, 401 U.S. at 167 (upholding New York's
character and fitness screening against First
Amendment challenges).
Here, the district court made clear that
Lawrence's denial was not based on his speech at all,
but rather on the manner in which he addressed his
grievances with the Board and the State Bar officials.
Unlike the petitioner in Konigsberg, upon which
Lawrence relies for support, Lawrence did not merely
criticize the government in newspaper editorials. 353
U.S. 252, 268-69 (1957) (noting that the editorials
were "not unusually extreme" and were "fairly
interpreted only [to] say that certain officials were
performing their duties in a manner that, in the
opinion of the writer, was injurious to the public"). It

18a

is not the fact that Lawrence criticized bar officials
that is concerning. He certainly has a First
Amendment right to do so. Nor is it the content of
Lawrence's speech that matters. Of crucial importance
is the way in which Lawrence chose to criticize the
officials—calling their employers, sending letters to
their former clients and friends, and picketing their
places of employment. Surely the district court is
constitutionally entitled to look at such conduct in
deciding whether Lawrence should be admitted "to a
profession dedicated to the peaceful and reasoned
settlement of disputes between men, and between a
man and his government." Wadmond, 401 U.S. at 166.
In sum, the district court did not abuse its
discretion in denying Lawrence admission to its bar,
based on its local rule allowing the panel to decide
whether an applicant is "qualified to be entrusted with
professional matters and to aid in the administration
of justice as an attorney and officer of the [c]ourt."
W.D. Mich. Local Civ. R. 83.1(c)(ii). We are mindful of
the Supreme Court's admonition in Konigsberg that
such a "vague qualification, which is easily adapted to
fit personal views and predilections, can be a
dangerous
instrument
for
arbitrary
and
discriminatory denial of the right to practice law." 353
U.S. at 263. But we are satisfied here that the denial
was not arbitrary or discriminatory. Because we
cannot say that the district court's decision "was
irregular, or was flagrantly improper," D.H. Overmyer
Co. v. Robson, 750 F.2d 31, 33 (6th Cir. 1984) (quoting
Burr, 22 U.S. at 531), we affirm.

19a

III.
For the foregoing reasons, we affirm the denial of
Lawrence's petition for admission to the Western
District of Michigan.

20a

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 1:17-mc-0098
Administrative Order No. 18-AD-013
IN THE MATTER OF THE PETITION
FOR ADMISSION OF FRANK J. LAWRENCE
MEMORANDUM OPINION AND ORDER
DENYING PETITION FOR ADMISSION
This matter is before the Court on Frank J.
Lawrence, Jr.’s,2 Petition for Admission to practice in
the Western District of Michigan. (ECF No. 1-2,
PageID.3-5).3 Chief District Judge Robert J. Jonker
assigned this matter to the undersigned three-judge
panel to review the petition and determine Mr.
Lawrence’s suitability for admission to the practicing
bar of this Court. (Admin. Order 17-AD-115, ECF No.
1; Admin. Order 17-AD-116, ECF No. 1-1).

1

Mr. Lawrence’s Petition for Admission does not indicate
that he is a junior. This Memorandum Opinion and Order will
hereinafter simply refer to him as Frank Lawrence and to his
father as Frank Lawrence, Sr., except as needed to avoid
confusion.
2
Unless otherwise noted, all parenthetical record cites are
to the docket in this matter: 1:17-mc-0098.

21a

On December 13, 2017, the Court conducted a
hearing on the record in Grand Rapids, Michigan, at
which Mr. Lawrence appeared, along with his counsel,
Dennis Dubuc. (Minutes, ECF No. 2). For the reasons
articulated below, Mr. Lawrence’s Petition for
Admission will be denied at this time.
Motion for Reconsideration
At the outset, the Court will address Mr.
Lawrence’s Motion for Reconsideration, “seeking
reconsideration of this Court’s December 13, 2017,
decision to prevent him from eliciting testimony from
Operations Specialist Ashley Mankin.” (Mtn. Recon. at
1, ECF No. 3, PageID.22-30). Ms. Mankin is a Court
employee who works in the Clerk’s Office. She has had
no input into the Court’s decision in this matter. Mr.
Lawrence’s interest in calling Ms. Mankin as a
witness is based on his dissatisfaction with the
manner in which Chief Judge Jonker handled his
Petition for Admission.
Mr. Lawrence filed his Petition for Admission
electronically on October 5, 2017. In response to the
question of whether he had ever been convicted of a
felony or misdemeanor, Mr. Lawrence stated the
following:
Yes, On August 19, 2000, I was ticketed for
violating a Bloomfield Township ordinance
that prohibits “interfering’ with a police
officer. This occurred after I told him that he
needed to secure a warrant before he
conducted a warrantless search. He claimed

22a

that I “interfered” with his investigation. I
was found guilty and ordered to pay a
monetary fine.
(Petition for Admission at ¶ 6, ECF No. 1-2,
PageID.4).
The next day, Chief Judge Jonker sent him a
letter advising that, due to the reported conviction, he
was considering “whether to handle the admission
application [himself], or refer it to a hearing panel
under [the District’s] Local rules.” (Chief Judge Jonker
Letter, Oct. 6, 2017, ECF No. 1-3, PageID.10). The
Chief Judge asked Mr. Lawrence to provide copies of
documents relating to his conviction, and to advise
whether “[he had] ever been denied admission to the
bar of any jurisdiction.” (Id.). The letter referenced
the fact that published news reports suggested that
Mr. Lawrence had been denied admission to the
Michigan Bar on “character and fitness review.” (Id.).
But, the Chief Judge noted that “published reports are
not always accurate.” (Id.).
Mr. Lawrence responded to the Chief Judge’s
letter, through counsel, Dennis Dubuc, on October 12,
2017. (Dubuc Letter, Oct. 12, 2017, ECF No. 1-4). Mr.
Lawrence provided some documents relating to his
conviction, but the letter indicated that, based on
advice of counsel, he would “not to do any further
research into the matter.” (Id., PageID.12-13). Instead,
his counsel asked the Chief Judge to “render a final
decision based on the information provided.” (Id.). Mr.
Dubuc provided a cursory review of his client’s efforts
to be admitted to various bars – acknowledging

23a

unsuccessful applications to the Florida Bar in 2005
and the Michigan Bar in 2006 and 2010, and noting a
recent admission in the District of Columbia Court of
Appeals. (Id.).4 Mr. Dubuc advised that the State Bar
of Michigan had certified Mr. Lawrence’s good moral
character in December 2016. (Id.).
Through Mr. Dubuc, Mr. Lawrence erroneously
asserted that the Chief Judge had received
information from Mr. Lawrence’s State Bar of
Michigan confidential file. (Dubuc Letter, Oct. 12,
2017, ECF No. 1-4, PageID.12). Mr. Dubuc asked the
Chief Judge to “enter a final Order immediately so
that [he] may submit this troubling matter to the
Sixth Circuit panel that will decide Lawrence v.
Parker, et[] al.” (Id., PageID.13). Mr. Dubuc did not
explain what he meant by “troubling matter,” nor did
he object to the Chief Judge’s stated consideration of
assigning the matter to a three-judge panel.
On October 16, 2017, the Chief Judge responded
to Mr. Dubuc’s letter, advising him that, based on the
information and materials Mr. Dubuc had provided,
he had decided to refer Mr. Lawrence’s application for
admission to a panel of judges. (Chief Judge Jonker
Letter, Oct. 16, 2017, ECF No. 1-5, PageID.18). The
Chief Judge noted that, contrary to the letter’s

3

The only evidence Mr. Lawrence provides concerning his
admission to the D.C. Bar is a generic notice of admission, which
does not contain his name or any information identifying him as
the intended recipient of the notice. (See Notice, Attached to
Petition for Admission, ECF No. 1-2, PageID.8). The Court is
assuming, for now, that he is a member in good standing of the
D.C. Bar.

24a

assertion, he had not received any information from
the State Bar of Michigan. (Id.).
On December 4, 2017, Mr. Lawrence’s counsel
faxed a letter to District Judge Janet Neff, the chair of
the three-judge panel. (Dubuc Letter, Dec. 4, 2017,
ECF No. 1-6). The letter included two requests: (1)
that the Court require Operations Specialist Ashley
Mankin to attend the hearing in this matter and to
provide sworn testimony; and (2) that the Court
provide a “bill of particulars,” containing “the precise
reasons why, in Mr. Lawrence’s case, his application
was not administratively approved by the Chief
Judge.” (Id., PageID.20-21).5 The letter also provided
additional information concerning Mr. Lawrence’s
admission to practice in other courts. (Id., PageID.21).
Again, Mr. Lawrence did not raise any objection to the
assignment of this matter to the three-judge panel.
Mr. Dubuc’s spurious suggestions that the Chief
Judge had engaged in “irregularities” in the handling
of Mr. Lawrence’s application, and in the initial
assignment of District Judge Paul Maloney to the
three-judge panel, are unfounded.6 The Chief Judge
had already advised Mr. Dubuc that he had obtained
no information from the State Bar. There is nothing in
the local rules that limits what information the Chief
Judge may consider, or from what source; nor do the
rules require that the Chief Judge explain to an
applicant why he elects to exercise his discretion in
4

Mr. Duboc’s letter violates Local Rule 7.1(a), which
explicitly prohibits letter briefs in support of motions.
5
On October 19, 2017, Chief Judge Jonker assigned Judge
Neff to replace Judge Maloney, as a result of Judge Maloney’s
decision to recuse himself. (See Admin. Order 17-AD-116).

25a

appointing a three-judge panel. Moreover, any reason
would be wholly irrelevant at this juncture, as a
decision of the majority of the undersigned three-judge
panel is final and binding. See W.D. MICH. LCIVR
83.1(d)(iv).
At the beginning of the December 13, 2017,
hearing, the Court addressed Mr. Lawrence’s request
to have Ms. Mankin testify. The Court explained why
any testimony Ms. Mankin would have to offer would
be irrelevant to Mr. Lawrence’s application. (Hr’g Tr.
at 3, ECF No. 4, PageID.57). The Court also addressed
Mr. Dubuc’s erroneous interpretation of Local Rules
83.1(c) and (d). (Hr’g Tr. at 4-6, PageID.58-60). When
he addressed the Court personally, Mr. Lawrence
raised again the issue of the interpretation of Local
Rules 83.1(c) and (d). (Hr’g Tr. at 6-7, PageID.60-61).
The Court advised Mr. Lawrence that, if he wished to
pursue his objection to the Court’s interpretation of
the relevant local rules, he could file a motion to
disband the three-judge panel. (Hr’g Tr. at 7,
PageID.61). Mr. Lawrence declined to make the
motion, electing instead to proceed with the hearing:
“I would like to proceed by the panel asking me
questions and providing testimony on my character
and fitness.” (Id. at 8, PageID.62).
Accordingly, he has waived any objection to the
jurisdiction and constitution of the undersigned threejudge panel. Nonetheless, and giving Mr. Lawrence
the benefit of the doubt, the Court will address – again
– the application of Local Rules 83.1(c) and (d), and
Mr. Lawrence’s erroneous interpretation of them.

26a

Local Rule 83.1(c) addresses the eligibility for
admission to practice in the Western District of
Michigan. It provides: “A person who is duly admitted
to practice in a court of record of a state, and who is in
active status and in good standing, may apply for
admission to the bar of this Court, except as provided
in (ii) below.” W.D. MICH. LCIVR 83.1(c)(i) (emphasis
supplied). Subpart (ii) provides, in relevant part, that,
if an applicant has been convicted of a crime, “the
Chief Judge shall make an independent determination
as to whether the applicant is qualified to be
entrusted with professional matters and to aid in the
administration of justice as an attorney and officer of
the Court.” In other words, the Chief Judge has the
authority to determine whether an individual
previously convicted of a crime is even eligible for
admission to practice in the District. If that
determination is made in the negative, the only
recourse for the applicant is to “file a petition for a
hearing before a three judge panel as described in
LCIVR 83.1(m)(iii).” W.D. MICH. LCIVR 83.1(c)(ii).
Local Rule 83.1(d), on the other hand, addresses
the procedure for persons to be considered for
admission. That rule identifies the information that
must be included in an application for admission. See
W.D.
MICH.
LCIVR
83.1(d)(i)(A)-(C).
That
information includes, of course, whether the applicant
has ever been convicted of a crime. See W.D. MICH.
LCIVR 83.1(d)(i)(C). The procedural rule gives
discretion to the Chief Judge to grant or deny an
application for admission, or in the alternative, “the
Chief Judge may refer the application to a three judge

27a

panel constituted pursuant to subsection (m)(iii)(A).”
W.D. MICH. LCIVR 83.1(d)(iv). The reference to
subsection (m)(iii)(A) simply makes clear that the
three-judge panel will consist of “at least one active or
senior district judge,” and that the other members of
the panel may include “senior judges, bankruptcy
judges, and magistrate judges.” W.D. MICH. LCIVR
83.1(m)(iii)(A). Chief Judge Jonker properly exercised
his discretion in submitting Mr. Lawrence’s
application for admission to the undersigned judicial
panel, and his appointment of the undersigned judicial
officers is fully consistent with Local Rule
83.1(m)(iii)(A).
Mr. Lawrence’s argument that a three-judge
panel lacks jurisdiction over his application because
the Chief Judge was first required to make a
determination regarding his eligibility is contrary to
any rational interpretation of the Local Rules. 7
Moreover, it is nonsensical. Under Mr. Lawrence’s
view, this matter should be sent back to the Chief
Judge to make a determination of whether he is
eligible for admission. That determination will either
be in the affirmative, which allows Mr. Lawrence’s
6

Mr. Lawrence’s position regarding Local Rule 83.1(c) is
internally inconsistent. On the one hand, he argues that the
Chief Judge was required to rule on his eligibility for admission
under Rule 83.1(c)(ii) (See Mtn. Recon. at 3-5, ECF No. 3,
PageID.24-26), which applies in this case only if Mr. Lawrence
has been “convicted of a crime.” But, on the other hand, he
contends that his 2002 conviction for violating the Bloomfield
Township ordinance is not a “true” criminal conviction (See
Dubuc Letter, Dec. 4, 2017, ECF No. 1-6, PageID.20-21), which
presumably would obviate the need for an eligibility
determination under Rule 83.1(c).

28a

application to go forward under Local Rule 83.1(d)
(with a decision by either the Chief Judge or a threejudge panel); or the determination will be in the
negative, triggering Mr. Lawrence’s right to petition
for a three-judge panel review.
Mr. Lawrence has been allowed to submit an
application. Pursuant to Local Rule 83.1(d)(iv), the
matter is now before a three judge panel to make an
independent determination whether, given his prior
conviction, “[he] is qualified to be entrusted with
professional matters and to aid in the administration
of justice as an attorney and officer of the Court,” W.D.
MICH. LCIVR 83.1(c)(ii), and whether he is otherwise
suitable for admission to the practicing bar of this
Court. Accordingly, unless he was prepared to accept a
potential negative decision by the Chief Judge – a
highly unlikely scenario – he is right where he would
be no matter which way the Chief Judge would have
decided the issue of eligibility under Rule 83.1(c).8
Mr. Lawrence’s efforts to have this matter
returned to Chief Judge Jonker are all the more
perplexing, given his stated intention, should he get
his way on this issue, to “immediately move for Judge
Jonker’s disqualification,” and to “ask that a different
judge make the ‘independent determination’.” (Mtn.
Recon. at 5, ECF No. 3, PageID.26). Putting aside the
7

Mr. Lawrence’s contention that he is entitled to “the
particulars upon which the Chief Judge denied his application”
(Mtn. Recon. at 3 n.2, ECF No. 3, PageID.24) is unsupported by
any provision in the Local Rules. Moreover, it is irrelevant, as the
Chief Judge has not decided anything, but rather, referred Mr.
Lawrence’s application to the undersigned panel for an
independent and final decision.

29a

fact that his contention as to the disqualification of the
Chief Judge is wholly unfounded, Mr. Lawrence is
essentially seeking to have some judge other than the
Chief Judge decide this matter. But, he has already
gotten his wish, and more – three judges other than
the Chief Judge are making an independent
determination as to his application for admission.
In conclusion, Mr. Lawrence’s contention that
the undersigned panel lacks jurisdiction is frivolous,
particularly given his failure to raise an objection to
the three-judge panel at or before the December 13,
2017,
hearing,
as
well
as
his
counsel’s
acknowledgement that the Chief Judge had the
discretion to refer this matter to a three-judge panel.
(See Hr’g Tr. at 6, ECF No. 4, PageID.60 (Mr. Dubuc
agreed with Judge Neff that the Chief Judge’s
“independent determination” may be based on the
decision of the panel)). Inasmuch as there is no basis
to find that the Chief Judge deviated from the
District’s Local Rules, and given that Ms. Mankin has
no information relevant to his application for
admission, Mr. Lawrence’s motion for reconsideration
(ECF No. 4) will be denied.
Legal Standards
Mr. Lawrence appears to be operating on the
misconception that simply having his “good moral
character to practice law” certified by some other
jurisdiction is sufficient to confer upon him the right
to be admitted to practice before this Court. (See Mtn.
Recon. at 8, ECF No. 3, PageID.29). It does not. See In
re Desilets, 291 F.3d 925, 929 (6th Cir. 2002) (“federal

30a

courts have the right to control the membership of the
federal bar”). “ ‘Congress has provided in 28 U.S.C. §
2071 that the district courts may prescribe rules for
the conduct of their business. It is clear from 28 U.S.C.
§ 1654 that the authority provided in § 2071 includes
the authority of a district court to regulate the
membership of its bar.’ ” 291 F.3d at 929 (quoting
Frazier v. Heebe, 482 U.S. 641, 652 (1987) (Rehnquist,
dissenting)).
“A federal district court has the ‘inherent
authority’ to deny an attorney’s application for
admission to practice before that court.” Stilley v. Bell,
155 F. App’x 217, 219 (6th Cir. 2005) (citing In re
Application of Mosher, 25 F.3d 397, 399-400 (6th Cir.
1994)); accord In re Desilets, 291 F.3d at 929. This
Court may “deny an attorney’s application for
admission to its bar when it is not satisfied that he
possesses good private and professional character.” In
re G.L.S., 745 F.2d 856, 859 (4th Cir. 1984). “[T]he
exercise of the authority to admit, deny, or suspend an
attorney is left to the discretion of the district court.”
Stilley v. Bell, 155 F. App’x at 219 (citing In re Snyder,
472 U.S. 634, 643 n.6 (1985)).
This Court must – and will – make an
independent determination of “whether [Mr.
Lawrence] possesses the professionalism and ethical
competence expected of an officer of the court.” In re
Mosher, 25 F.3d at 400 (citing In re G.L.S., 745 F.2d at
859). A review of the record, including his conduct
before this Court, casts serious doubts on Mr.
Lawrence’s professional and ethical competence, as
well as his private and professional character.

31a

Background to Petition for Admission
Mr. Lawrence’s present Petition for Admission
to this Court comes some sixteen years after he
graduated from law school and passed the Michigan
bar exam.9 He has yet to obtain a license to practice
law in Michigan. While the Michigan State Bar
recently certified his character and fitness, the Board
of Law Examiners advised Mr. Lawrence that he must
retake the bar exam due to its policy of invalidating
bar examination scores after three years. Mr.
Lawrence is currently in litigation challenging the
constitutionality of that policy. Lawrence v. Pelton,
Case No. 1:17-cv- 289 (W.D. Mich.).
The Sixth Circuit Court of Appeals has
described as “contentious” Mr. Lawrence’s relationship
with the State Bar of Michigan and the Michigan
Board of Law Examiners. Lawrence v. Welch, 531 F.3d
364, 366 (6th Cir. 2008). Sadly, that is an
understatement.
While Mr. Lawrence’s conviction was incurred a
number of years ago, his conduct following that
conviction, including that before this Court, is
inconsistent with that expected of an officer of the
Court. A detailed explication of the history of his

8

This is Mr. Lawrence’s second petition for admission to
practice in the Western District of Michigan. His first was denied
on May 1, 2009, based on the fact that he had not been admitted
to practice law in any state. Mr. Lawrence unsuccessfully
appealed that decision. See In re Frank J. Lawrence, Jr., No. 091636, Slip Op. at 1 (6th Cir. Dec. 2, 2009) (unpublished) (copy
filed in this matter at ECF No. 5).

32a

conduct regarding his conviction and efforts to
discredit State Bar of Michigan officials is warranted.
1.
Mr. Lawrence’s 2002 Conviction for Interfering
with Police Officers
Mr. Lawrence’s checkered history concerning
his unsuccessful efforts to obtain a Michigan law
license began with his 2002 conviction for interference
with police officers during the discharge of their
official duties. That conviction arose from an August
19, 2000, incident in which Bloomfield Township
police officers were called to Frank Lawrence, Sr.’s,
residence concerning a domestic assault he committed
against his son and Frank Lawrence, Jr.’s, brother:
Christian Lawrence.
Christian Lawrence – at the time a young child
– called 911, reporting that his father had struck him
in the eye with a board.10 Christian also reported that
there were two other people in the house: his father,
and Frank Lawrence, Jr. Upon arrival, the responding
officers observed Christian through a screen door. His
eye was swollen and bleeding from a large cut. The
officers asked him to come out of the house,
whereupon they questioned him about his injuries.
Christian advised the officers that his father had hit
him. The officers then asked Frank Lawrence, Sr., to
come out, and they placed him under arrest.
9

Unless otherwise indicated, the factual statement
contained herein is a compilation of those set out in the Sixth
Circuit’s opinions in Lawrence v. 48th Dist. Court, 560 F.3d 475,
477-78 (6th Cir. 2009), and Lawrence v. Bloomfield Twp., 313 F.
App’x 743, 745-46 (6th Cir. 2008).

33a

Additional officers arrived on the scene. The
Bloomfield Township Police Department requires
officers responding to a domestic-violence call “to
secure the crime scene to ensure that no other victims
are present and to seize any weapons.” Lawrence v.
Bloomfield Twp., 313 F. App’x 743, 745 (6th Cir. 2008)
(citing testimony of Bloomfield Township police chief).
Accordingly, the officers asked Frank Lawrence, Jr., to
step out of the house. He responded: “F[ ] you.” The
officers again asked him to step out, and he
responded: “F[ ] you. Arrest me.” One of the officers
then explained to Mr. Lawrence “that they were
‘investigating a criminal act that took place on the
property,’ that they needed to come into the house and
that they did not ‘have to get a search warrant.’ ” Id.
Mr. Lawrence began “screaming and yelling,”
repeatedly shouting: “You’re not coming in my house.
You need a search warrant.” Id.11
Mr. Lawrence refused to comply with repeated
requests to step out of the house. Instead, he “stood
with his legs spread in the doorway and us[ed] his
body to block the entrance.” Id. (internal quotation
marks omitted). Eventually, “the officers reached into
the house, pulled [Mr.] Lawrence out, took him to the
ground and told him to sit down on a bench.” Id. The
officers then conducted a protective sweep of the house
and recovered the board Frank Lawrence, Sr., used to
hit his son, Christian. Christian was treated by
paramedics at the scene and taken to the hospital.
10

Mr. Lawrence was a third-year law student at the time of
this incident. (See Dec. 13, 2017, Hr’g Tr. at 10, ECF No. 4,
PageID.64; Compl. ¶ 28, Lawrence v. Chabot, Case No. 4:03-cv0020, ECF No. 1, PageID.11).

34a

The officers placed Mr. Lawrence, Jr., under
arrest for obstructing a police officer, and he was
taken in handcuffs to the Bloomfield Township Police
Department. He was later released on bond.
On September 8, 2000, Mr. Lawrence was
charged by a Misdemeanor Complaint with
“interfering with a police officer,” an offense
punishable by incarceration for up to ninety days. (See
ECF No. 1-4, PageID.14). Mr. Lawrence filed various
legal actions seeking to enjoin the criminal
prosecution, which included a declaratory action in the
Oakland County Circuit Court, a Section 1983 action
in the Eastern District of Michigan (EDMI), and a
petition for a writ of mandamus in the EDMI. See
Lawrence v. Bloomfield Twp., 313 F. App’x at 745.
“None of these actions succeeded in postponing his
trial.” Id.
Mr. Lawrence also filed an unsuccessful motion
to dismiss the charge in the 48th District Court. See
Lawrence v. 48th Dist. Court, 560 F.3d 475, 477 (6th
Cir. 2009). He sought leave from the Oakland County
Circuit Court to appeal the denial of his motion to
dismiss and to enjoin the prosecution in the district
court, both of which were denied. See id. at 477-78.
Both the Michigan Court of Appeals and the Michigan
Supreme Court denied leave to appeal. See id. at 478.
Mr. Lawrence was convicted on April 8, 2002,
following a one-day jury trial. During the trial, Mr.
Lawrence contested the legality of the officers’ actions.
But he also contested the officers’ collective testimony
concerning his actions the night of August 19, 2000.
See Lawrence v. Bloomfield Twp., 313 F. App’x at 745-

35a

46. For example, he claimed that the officers “never
told him they wanted to enter the home to look for
evidence, insisting he refused to leave the house
because he was just wearing his underwear.” Id. at
746. Mr. Lawrence also testified “that the officers
pulled his hair, ‘dragged [him] out like an animal . . .
and stomped on [his] leg.” Id.
The Oakland County Circuit Court upheld Mr.
Lawrence’s conviction. The Michigan Court of Appeals
and the Michigan Supreme Court denied leave to
appeal. See People v. Lawrence, 472 Mich. 942, 698
N.W.2d 400 (2005).
2.
Mr. Lawrence’s Legal Battles with the State
Bar of Michigan
Mr. Lawrence graduated from the University of
Detroit Law School in 2001, and he passed the
Michigan bar exam that same year. He applied for a
license to practice law. As part of the application
process, he filled out an Affidavit of Personal History,
in which he noted that he was subject to a pending
misdemeanor charge for interfering with a Bloomfield
Township police officer. See Lawrence v. Chabot, 182
F. App’x 442, 445 (6th Cir. 2006). Due to the pending
criminal charge, Mr. Lawrence’s bar application was
held in abeyance until resolution of the criminal case.
Id.
Early in the criminal proceedings, the
Bloomfield Township attorney, who was then
president of the State Bar of Michigan, offered to let
Mr. Lawrence enter a “plea under advisement.” Id.

36a

Under this plea, Mr. Lawrence would not have
incurred a conviction, and the charge would later have
been dismissed if he complied with certain terms set
by the court. Id. Mr. Lawrence rejected the plea offer.
Id.
More than a year later, and immediately before
the jury trial began, Mr. Lawrence’s counsel asked the
township’s attorney to re-offer the “plea under
advisement.” Lawrence v. Chabot, 182 F. App’x at 445.
This discussion took place in the presence of the
district judge, Judge Edward Avadenka, but Mr.
Lawrence was not present. Id. The township attorney
indicated a willingness to put the same plea offer back
on the table if Mr. Lawrence was willing to accept it.
Id. Judge Avadenka advised counsel “ ‘that, if the
parties resolved the case with a plea under
advisement, he would communicate to the Character
and Fitness Committee [of the state bar] that a plea
under advisement constitutes a conclusion of the case,’
thus permitting the committee to act upon [Mr.]
Lawrence’s bar application.” Id. at 445-46 (quoting
Joint Appendix at 1324-25). Mr. Lawrence again
rejected the offer, choosing to go to trial. Id. at 446.
A week after his conviction, Mr. Lawrence
wrote a letter to the manager of the Character and
Fitness Department of the State Bar of Michigan,
informing her that the pending criminal charge
holding up his application had been resolved.
Lawrence v. Chabot, 182 F. App’x at 446. In that same
letter, he accused Judge Avadenka “of improperly
using [Mr.] Lawrence’s ‘law license as a bargaining
chip’ by allegedly offering to speak to the Character

37a

and Fitness Committee on [Mr.] Lawrence’s behalf
only if [Mr.] Lawrence ‘dropped the civil case12 against
the Township.’ ” Id. (quoting the Joint Appendix at
1317).13 “In light of the inflammatory allegation of
judicial misconduct, . . . an investigator of the
Character and Fitness Department[]telephoned Judge
Avadenka to verify the assertions in [Mr.] Lawrence’s
letter.” Id.
Judge Avadenka advised the investigator of the
actual content of the plea negotiations, stating that,
“while he ‘did offer to advise the Character and
Fitness Committee that the [criminal] case was
concluded, Mr. Lawrence’s law license was not used as
a bargaining chip in any way.’ ” Id. (quoting the Joint
Appendix at 1336).
Given a number of concerns – including “[his]
litigation history and financial difficulties” – the
Character and Fitness Committee referred Mr.
Lawrence’s bar application to a district committee to
conduct an interview with him. Lawrence v. Chabot,

11

The civil case was Lawrence v. Bloomfield Twp., Case No.
00-74302 (E.D. Mich).
12
Apparently, there is a transcript supporting Mr.
Lawrence’s version of events. See Board of Law Examiners
Opinion at 20, In re Frank J. Lawrence, Jr. (William Rheaume,
concurring) (a copy of this opinion is found in Lawrence v. Berry,
Case No. 5:06-cv-134, ECF No. 1-2, PageID.22 (W.D. Mich.)). The
undersigned panel does not have access to this transcript. It is
troubling, however, that Mr. Lawrence chose to raise the
allegations of misconduct against the district judge with the
State Bar, rather than the Judicial Tenure Commission or some
other appropriate forum. Ironically, in the December 13, 2017,
hearing before this Court, Mr. Lawrence essentially admitted
that he was using the allegations against the judge with the

38a

182 F. App’x at 446. “[Mr.] Lawrence responded by
filing a motion for adjournment of the interview,
alleging for the first time that, under Michigan law,
violations of township ordinances should not be
considered criminal cases.” Id. When his request for
adjournment was denied, Mr. Lawrence withdrew his
bar application. Id.
Instead of pursuing his bar application, Mr.
Lawrence filed a Section 1983 suit in the Western
District of Michigan, naming, among others, the
Michigan Board of Law Examiners and its members,
the State Bar of Michigan, and the justices of the
Michigan Supreme Court. See Complaint, Lawrence v.
Chabot, Case No. 4:03-cv- 0020, ECF No. 1 (W.D.
Mich). Mr. Lawrence sought “prospective relief” from
the operation of certain Michigan licensing rules and
regulations, which he claimed were “patently
unconstitutional.” Id. at PageID.1. Mr. Lawrence also
sought monetary damages against certain defendants.
Id. at PageID.2. Shortly after filing the complaint, Mr.
Lawrence filed a motion for a temporary restraining
order and for a preliminary injunction, seeking to
“enjoin[] the Defendants from using protected First
Amendment activities as a basis for evaluating ‘good
moral character’ and require the Defendants to
establish suitable guidelines or procedures, which
comply with First Amendment or general Due Process
principles.” Lawrence v. Chabot, Case No. 4:03- cv0020, ECF No. 12, PageID.61. The district court
denied the relief Mr. Lawrence sought, and the Sixth
State Bar as a bargaining chip to get his law license. (See Hr’g
Tr. at 12-13, ECF No. 4, PageID.66-67).

39a

Circuit affirmed on all issues. See Lawrence v. Chabot,
182 F. App’x at 445-59.14
3.
Mr. Lawrence’s Extra-Judicial Actions Against
Bar Officials
Mr. Lawrence withdrew his initial application
for a Michigan law license in October 2002. See Board
of Law Examiners Opinion at 1, In re Frank J.
Lawrence, Jr. (a copy of this opinion is found in
Lawrence v. Berry, Case No. 5:06-cv-134, ECF No. 1-2
(W.D. Mich.) (hereinafter “Board Op.”). Thereafter,
and during subsequent efforts to obtain his license,
Mr. Lawrence engaged in a number activities
targeting State Bar officials with the intent of
“caus[ing] financial harm or embarrassment.” Id. at
19, PageID.21.
Soon after withdrawing his bar application, Mr.
Lawrence began operating a website he entitled
“StateBarWatch,”
located
at
http:www.statebarwatch.org, in which he “actively
criticize[d] the [State Bar of Michigan] and the [Board
of Law Examiners].” Compl. ¶ 21, Lawrence v. Berry,
Case No. 5:06-cv-134, ECF No. 1, PageID.36. By his
own admission, Mr. Lawrence used his website to
publically make the following accusations:
1. that the State Bar of Michigan’s Executive
Director committed “plagiarism”;
13

Midway through the litigation, Mr. Lawrence sought,
unsuccessfully to have both the district judge and the magistrate
judge disqualified for alleged bias. See Lawrence v. Chabot, 182
F. App’x 442, 448-49 (6th Cir. 2006).

40a

2. that the State Bar’s Assistant Regional
Counsel had made false statements in an
oral argument before the Sixth Circuit Court
of Appeals;
3. that the State Bar’s Regulation Counsel
made false (or at least contradictory)
statements to one or more district judges in
this District;
4. that one of the members of the Board of
Law Examiners improperly used a state-run
website to “cast aspersions against the
Michigan Civil Rights Initiative”; and
5. that a member of the Board of Law
Examiners had been subject to “previous
drunk-driving arrests and conviction.”
Id., PageID.36-37. Mr. Lawrence also posted to his
website the fact that he had been picketing the law
office of a member of the Board of Law Examiners,
using a sign that stated: “I do not recommend
attorney [ ].”15 Id., PageID.37.
In August 2004, Mr. Lawrence reapplied for a
Michigan law license. Board Op. at 1, Lawrence v.
Berry, Case No. 5:06-cv-134, ECF No. 1-2, PageID.3.
The District G Character and Fitness Committee held
a hearing on August 15, 2005, and it later issued a
14

The Court is omitting the attorney’s name to avoid undue
embarrassment.

41a

Report and Recommendation finding that Mr.
Lawrence had not “shown by clear and convincing
evidence that ‘he currently possess[es] the requisite
good character and fitness to be recommended to the
practice of law in this state.’ ” Id. at 1-2, PageID.3-4
(quoting
District
Committee’s
Report
and
Recommendation).
According to the District Committee, Mr.
Lawrence made disparaging comments about
Michigan’s state courts: “ ‘[Mr. Lawrence] made it
clear that, at least in part because of the litigation, he
has little respect – and indeed considerable distain
[sic] – for the state court system.’ ” Compl. ¶ 24,
Lawrence v. Berry, Case No. 5:06-cv-134, ECF No. 1,
PageID.38 (quoting District Committee’s Report and
Recommendation). Based on these comments, the
District Committee concluded: “ ‘We are concerned
about providing a law license to someone who, even
before he has handled his first case as a member of
the bar, has effectively written off such a huge
component of the justice system.’ ” Id
The Standing Committee on Character and
Fitness endorsed the recommendation of the District
Committee, and Mr. Lawrence did not request a
hearing before that committee. Board Op. at 2,
Lawrence v. Berry, Case No. 5:06-cv- 134, ECF No. 1-2,
PageID.4. The Board of Law Examiners “voted to
accept the unfavorable recommendation.” Id. Mr.
Lawrence thereafter requested a hearing before the
Board, which was conducted on April 20, 2006. Id. The

42a

Board considered five
summarized as follows:

issues,

which

can

1. whether Mr. Lawrence’s conduct in
various litigation and administrative actions,
“evidences unnecessarily combative or
confrontational behavior,” including his
“apparent disregard for the rule of law when
considering [his] conduct which led to his
August 19, 2000, arrest and subsequent
conviction for Interfering with a Police
Officer”;
2. whether Mr. Lawrence’s 2001 termination
from employment with the Michigan
Attorney General’s Office, including his
appeal of that termination, and his
termination from a private employer for
“being unprofessional with [a] customer” had
a bearing on the Board’s 2006 fitness review;
3. whether Mr. Lawrence’s failure to pay
certain
debts
“evidences
financial
irresponsibility or bad faith toward
creditors”;
4. whether Mr. Lawrence’s 2004 testimony
before the Florida Board of Bar Examiners to
the effect that he did not intend to practice
law in Michigan disqualified him for
admission to the Michigan Bar; and

43a

be

5. whether Mr. Lawrence’s conduct following
the August 15, 2005, District Character and
Fitness Committee hearing was “vexatious,
combative, confrontational or otherwise
inappropriate.”
Id. at 2-3, PageID.4-5.
On June 14, 2006, the Board of Law Examiners
issued its decision. It found the matters relating to his
employment terminations (issue 2) were too remote in
time to have been probative to its character and
fitness determination; it was satisfied with Mr.
Lawrence’s stated intention to pay his past-due debts
(issue 3); and it was satisfied with Mr. Lawrence’s
assurances that he intended to practice law in
Michigan. Id. at 8-9, PageID.10-11. The Board also
noted that it was not bound by the Florida Bar’s ruling
denying Mr. Lawrence’s application to practice law in
that state. Id. at 9, PageID.11.
With respect to issue 1, the Board found that
Mr. Lawrence showed “a lack of judgment” in his
actions that led to his August 19, 2000, arrest and
later conviction for interfering with a police officer. Id.
at 7, PageID.9. The Board concluded, however, that
the incident, “standing alone,” would not have been
dispositive – “although the lack of judgment shown
may have foreshadowed [his] actions . . . relative to
Issue 5.” Id.
The Board focused considerable attention on
issue 5, which related to Mr. Lawrence’s extra-judicial
actions targeting members of the District G Character

44a

and Fitness Committee, who recommended against his
admission to practice law. One of the committee
members was, at the time, an assistant dean at the
University of Michigan School of Law.16 On September
8, 2005, Mr. Lawrence called the committee member’s
assistant at the law school, reporting that the
committee member had treated him unfairly due to
his website. He also advised the assistant that he
wanted to address the law students, stating “the
students deserve to know what kind of man [the
committee member was] and to see another side of
[the committee member].” Board Op. at 10, Lawrence
v. Berry, Case No. 5:06-cv 134, ECF No. 1-2,
PageID.12 (quoting letter from committee member).
Mr. Lawrence sent a letter to the Board of
Directors of Community Legal Resources, the
employer of another committee member. In that letter,
Mr. Lawrence represented himself as a “civil rights
activist,” and he alleged that the committee member
had used Mr. Lawrence’s “political beliefs” against
him in excluding him from the practice of law. Id. at
10-11, PageID.12-13. In his letter, Mr. Lawrence also
accused the committee member of engaging in “a cruel
and unfair manipulation of [his hearing] testimony”
regarding the disparaging comments he reportedly
made about the Michigan state court system. Id. at 11,
PageID.13.17
The Court will not name the committee members who
were subject to Mr. Lawrence’s attacks, as there is no need to
compound the embarrassment and distress Mr. Lawrence’s antics
assuredly caused them.
16
This accusation is undermined by Mr. Lawrence’s own
acknowledgement to the Board of Law Examiners that he
15

45a

The Board of Law Examiners questioned Mr.
Lawrence about these communications. He testified
that he “felt an injustice had taken place,” and that he
was “outraged.” Id. at 12, PageID.14. While he
indicated “regret” for his actions, he maintained that
they were justified. Id. at 15-18, PageID.17-20. One of
his own lawyers testified that Mr. Lawrence’s actions
“were ‘grievously wrong’ and that he found them
‘personally reprehensible.’ ” Id. at 18, PageID.20.
The Board found that Mr. Lawrence’s actions
“appear to have been calculated to cause financial
harm or embarrassment to [the committee members].”
Id. at 19, PageID.21. The Board further noted:
Instead of working solely within the
appellate process, [Mr. Lawrence] chose to
attack the individuals involved in the
process. . . . It is difficult to conceive how
[Mr. Lawrence] would consider this
acceptable behavior, especially during the
time when his character was already under
scrutiny. At a bare minimum, he
demonstrated gross lack of judgment.
Id. at 18-19, PageID.20-21. The Board concluded that
Mr. Lawrence failed to meet his burden of
demonstrating his character and fitness to practice
law: “The subject communications show a propensity
to act in other than a ‘fair’ manner. He has not shown
“believe[s] that the [Michigan] courts do not brought in federal
courts, if possible.” Board Op. at 11, Lawrence v. Berry, Case No.
5:06-cv-134, ECF No. 1-2, PageID.13

46a

that he will exercise good judgment, that he will
conduct himself professionally and with respect for the
law.” Id.
Soon after the Board of Law Examiners issued
its decision, Mr. Lawrence again resorted to the same
vexatious tactics that caused the Board to find that he
lacked the character and fitness to practice law. One
of the three Board members who participated in the
decision to deny him a license to practice law served,
at the time, as the Director of the Michigan
Department of Civil Rights.18 In a letter dated five
days after the Board’s decision, Mr. Lawrence wrote to
a member of the Michigan Civil Rights Commission
accusing this Board member of rendering a
“disingenuous” decision. See Frank Lawrence Letter to
Albert Calille, dated June 19, 2006, filed on the docket
in Lawrence v. Berry, Case No. 5:06-cv-134, ECF No.
1-3 (W.D. Mich.). He also accused the Board member
of using a state-run website to make public
defamatory statements against persons involved in a
civil rights initiative. Id., PageID.25. Most disturbing,
is Mr. Lawrence’s unsubstantiated accusation of
racism: “I have noticed that this type of hypocrisy is
commonplace among many black civil rights activists.
They believe that they have a right to speak out, but
for everyone else, there exists a double standard. I
truly believe that if I were black, I never would have
been treated this way.” Id.
In January 2008, Mr. Lawrence filed his third
application for a Michigan law license. See Amend.
17

This Board member is now a United States District Judge
for the Eastern District of Michigan.

47a

Compl. ¶ 13, Lawrence v. Raubinger, Case No. 1:10-cv467, ECF No. 19, PageID.200 (W.D. Mich.). Prior to
submitting this application, Mr. Lawrence used his
website, statebarwatch, to claim that the Assistant
Secretary to the Board of Law Examiners was
occupying his position “illegally”; to accuse the Clerk
of the Michigan Supreme Court of being “an
amazingly lazy civil servant”; and to assert that
“widespread dishonesty and corruption” existed within
the State Bar of Michigan. Id., ¶¶ 10, 20, PageID.199,
202. In 2009, prior to a hearing scheduled before the
Board of Law Examiners, Mr. Lawrence mailed
“hundreds of questionnaires to the [Board] members’
former clients and acquaintances, requesting that
they [provide him] any information in their possession
that would call into question the [Board] members’
ability to serve the public.” Id., ¶ 18, PageID.201. His
bar application was denied in May 2010. (See Dubuc
Letter to Chief Judge Jonker, Oct. 12, 2017, ECF No.
1-4, PageID.12).
Discussion
1.
Mr. Lawrence’s Conviction for Interfering with
Police Officers
Mr. Lawrence continues to minimize his
culpability concerning his conduct on August 19, 2000,
which led to his conviction for interfering with police
officers. In his Petition for Admission, he simply
states:

48a

I was ticketed for violating a Bloomfield
Township
ordinance
that
prohibits
“interfering” with a police officer. This
occurred after I told him that he needed to
secure a warrant before he conducted a
warrantless search. He claimed I “interfered”
with his investigation. I was found guilty
and ordered to pay a monetary fine.
(Petition for Admission at ¶ 6, ECF No. 1-2,
PageID.4).
The Court now knows that the facts were far
more serious than Mr. Lawrence represented in his
petition. Those facts include his repeated refusal to
obey lawful orders of police officers who were engaged
in a criminal investigation; his repeated use of abusive
and profane language; his arrest; his being charged by
a misdemeanor complaint; and his failure to take
responsibility for his actions, contesting the officers’
testimony in a jury trial.
During the December 13, 2017, hearing, Mr.
Lawrence persisted in his claims that the police
officers’ accounts of the August 19, 2000, incident were
inaccurate (see Hr’g Tr. at 11, 13-14, ECF No. 4,
PageID.65, 67-68), despite his conviction by an
impartial jury. He seemed more interested in casting
blame on the officers involved in his arrest than in
accepting responsibility for his own actions. For
example, when asked to advise the Court of the facts
leading to his arrest, Mr. Lawrence gratuitously
asserted that “[the officers’] version of the events have
changed over time.” (Hr’g Tr. at 14, PageID.68). He
also claimed that the officers “dragged him” out of his

49a

house without giving him sufficient time to respond to
their order (Hr’g Tr. at 17, PageID.71), and that they
“roughed” him up (Hr’g Tr. at 15, PageID.69).
Mr. Lawrence also went out of his way to fault
the trial judge. In response to a simple question
regarding the outcome of the trial, Mr. Lawrence
acknowledged his conviction, but quickly added: “The
case – the judge disqualified himself because he was,
well, he was caught sending inappropriate e mails to
me. And he – and the State Bar made mention of that
in their opinion too.” (Hr’g Tr. at 11, PageID.65).
His statements to the Court concerning the
facts leading to his August 19, 2000, arrest were less
than credible. For example:
And I remember the [officers’] initial concern
is they wanted me to talk with them and
they wanted to interview me. Later on the
facts kind of changed and it seemed to
develop into this notion that I blocked access
to the home. But I don’t remember that
really being a concern of their’s right at the
get-go.
(Hr’g Tr. at 11, PageID.65). The facts, as recounted by
the Sixth Circuit in its affirmance of the denial of Mr.
Lawrence’s habeas corpus petition, reveal that the
officers made clear that their order to leave the house
was based on a “need to check for additional suspects,
victims, or evidence.” Lawrence v. 48th Dist. Court,
560 F.3d 475, 477 (6th Cir. 2009). Nevertheless, Mr.

50a

Lawrence continued in his refusal to allow the officers
entry into the home. Id.
Mr. Lawrence’s claim that the officers “dragged”
him out of his home was used in an apparent effort to
minimize his culpability. When the Court asked why
he did not comply with the officers’ order to step
outside the house, Mr. Lawrence provided a nonresponsive answer: “Because they dragged me
outside.” (Hr’g Tr. at 17, PageID.71). It was only when
pressed on the issue of whether he had been given an
opportunity to comply that he stated: “There was a
very short window, yes.” (Id.).
Once again, Mr. Lawrence’s account is rebutted
by the facts. At his trial, the officers testified that they
twice asked Mr. Lawrence to step out of the house,
each request being met with profanities and demands
to be arrested. See Lawrence v. Bloomfield Twp., 313
F. App’x at 745; (see also Bloomfield Twp. Police Dep’t
Narrative Report, Aug. 19, 2000, Incident No. 13999,
ECF No. 1-4, PageID.15-16 (recounting officer’s
repeated efforts to get Mr. Lawrence to come out of the
house)). One of the officers then explained to Mr.
Lawrence why they needed to enter the residence, to
which Mr. Lawrence began “ ‘screaming and yelling’ . .
. several times, ‘You’re not coming in my house. You
need a search warrant.’ ” Lawrence v. Bloomfield
Twp., 313 F. App’x at 745. Rather than comply with
the officers’ request to step out of the house, Mr.
Lawrence “stood with his legs spread in the doorway
and ‘us[ed] his body to block the entrance.’ After it
became clear that [Mr.] Lawrence would not
cooperate, the officers reached into the house, pulled

51a

[him] out, took him to the ground and told him to sit
down on a bench.” Id.
Mr. Lawrence’s claim that he was “roughed up
by the police” (Hr’g Tr. at 15, ECF No. 4, PageID.69)
is, to say the least, hyperbolic. One of the arresting
officers described Mr. Lawrence’s arrest as follows:
Officer Godlewski reached inside the house,
grabbed Mr. Lawrence, Jr.’s shirt and pulled
him outside. As Mr. Lawrence, Jr. exited the
house, I held onto [his] right arm and placed
my right hand on the top of his head and
ordered [him] to the ground. Mr. Lawrence,
Jr. did as I requested and I used my hands to
assist [him] to the ground. Once on his
knees, I told Mr. Lawrence, Jr. to stay in
that position and not move.
(Bloomfield Twp. Police Dep’t Narrative Report, Aug.
19, 2000, Incident No. 13999, ECF No. 1-4, PageID.1516). While Mr. Lawrence was later taken to the
hospital complaining of neck, back, and leg pain, he
was released that night apparently without treatment.
(See id.). Moreover, Mr. Lawrence offered no evidence
of injury in his Section 1983 lawsuit against the
officers. See Lawrence v. Bloomfield Twp., 313 F.
App’x at 748. In that case, the court granted summary
judgment in favor of the officers, finding that they did
not use excessive force “when they removed [Mr.]
Lawrence after he ‘us[ed] his body to block the
entrance to the door.’ ” Id.

52a

When asked by this Court whether the conduct
leading to his arrest and conviction was befitting an
officer of the court, Mr. Lawrence equivocated. (See
Hr’g Tr. at 18, ECF No. 4, PageID.72). His selective
memory concerning the facts relating to his arrest and
conviction – easily offering exculpatory information,
while struggling to recall basic facts concerning his
offense conduct – further undermines his credibility
with the Court. Given that he was put on notice that
his 2002 conviction for obstructing officers was the
basis for the Court’s initial scrutiny of his Petition for
Admission (see Chief Judge Jonker Letter of Oct. 6,
2017, ECF No. 1-3, PageID.10), Mr. Lawrence’s
statement that he was unprepared to discuss the facts
relating to this conviction (see Hr’g Tr. at 15,
PageID.69) is perplexing.
The undersigned panel, having had the
opportunity to observe Mr. Lawrence’s demeanor
during the December 13, 2017, hearing, along with the
inconsistencies between his account and the facts of
the case, find that he has not demonstrated the level
of candor the Court expects from those admitted to
practice in the Western District of Michigan. The
Court recognizes that Mr. Lawrence’s conviction is
some fifteen years old. But his lack of candor and his
equivocation regarding his culpability belie his
assertions that he is not the same man who was
convicted of interfering with the police. (Hr’g Tr. at 26,
PageID.80).
2.
Mr. Lawrence’s Extra-Judicial Actions Against
State Bar Officials

53a

By his own admission, Mr. Lawrence has
publically disparaged State Bar officials, and, in some
instances, he has attempted to cause them financial
harm. He began a website (statebarwatch) shortly
after withdrawing his first application for bar
admission, which he used to publicize derogatory
information about State Bar officials, including
accusations of plagiarism, making false statements in
courts of law, improper use of a state-run website, and
drunk driving. See Compl. ¶ 21(1), (2), (5), and (6),
Lawrence v. Berry, Case No. 5:06-cv-134, ECF No. 1,
PageID.36-37. None of these allegations was relevant
to Mr. Lawrence’s application to practice law; nor did
any serve a legitimate purpose in his litigation against
the State Bar officials.
There are only two plausible interpretations
concerning the purpose of Mr. Lawrence’s vexatious
public attacks on these officials: to punish, through
embarrassment and ridicule; and to extort a favorable
decision on his next bar application.
Mr. Lawrence also admitted to picketing the
law office of the then president of the Board of Law
Examiners, using a sign that was plainly intended to
discourage clients from retaining the Board member’s
legal services. (See Hr’g Tr. at 20-22, ECF No. 4,
PageID.74-76); see also Compl. ¶ 21(7), Lawrence v.
Berry, Case No. 5:06-cv- 134, ECF No. 1, PageID.37
(The sign stated: “I do not recommend attorney [ ].”).
Mr. Lawrence’s responses to the Court’s queries

54a

regarding his motivation for picketing the law office of
this attorney was an exercise in sophistry:
Q. And so your efforts in this regard were
intended to deny him clients, to interfere
with his ability to practice law.
A. That’s not my testimony today.
Q. Well, what was the purpose of your
picketing with that sign?
A. The purpose was to voice my
dissatisfaction with the way in which this
individual processed my application. He
doesn’t have – the Board of Law Examiners
really doesn’t have an office you can picket.
It’s a little tiny office inside the Supreme
Court building. So, you know, going to his
office was the only place I could really go to
where there was, I would, I would have any
effect. . . .
Q. What was written on your sign would be
interpreted as an effort to keep clients away,
not to express dissatisfaction with how the
Board of Law Examiners were handling your
application; would you agree?
A. Well, you can interpret it that way but he
didn’t recommend –

55a

Q. How else would you interpret [it]?
A. He didn’t recommend me and I don’t
recommend him. . . .
(Hr’g Tr. at 21-22, ECF No. 4, PageID.75-76). Mr.
Lawrence again equivocated when asked whether his
conduct was consistent with what is expected from an
officer of the court. (See id. at 22-23, PageID.76-77).
But, when pressed by the Court, Mr. Lawrence
conceded that his conduct demonstrated “less than
good judgment.” (Id. at 25-26, PageID.79-80).
Mr. Lawrence’s efforts to discredit members of
the Character and Fitness Committee who
recommended against his admission to practice law
were plainly vexatious, if not vindictive. He contacted
the law school at which one member worked with the
stated intention of derogating the character of that
member before the student body. He wrote a letter to
another committee member’s employer that included
unsubstantiated accusations that the member had
used his “political beliefs” against him and that she
had engaged in “a cruel and unfair manipulation of
[his hearing] testimony.” Board Op. at 11, Lawrence v.
Berry, Case No. 5:06-cv-134, ECF No. 1-2, PageID.13.
Notwithstanding his own attorney’s assessment that
Mr. Lawrence’s actions “were ‘grievously wrong’ and
that he found them ‘personally reprehensible,’ ” Id. at
18, PageID.20, Mr. Lawrence continued to maintain
that his actions were justified. Id. at 15-18,
PageID.17-20.

56a

The Board of Law Examiners correctly
concluded that Mr. Lawrence’s actions against the
committee members “appear to have been calculated
to cause financial harm or embarrassment to [them].”
Id. at 19, PageID.21. The Court also agrees with the
Board’s stated concern that, “[i]nstead of working
solely within the appellate process, [Mr. Lawrence]
chose to attack the individuals involved in the
process.” Id. at 18, PageID.20).
Apparently, Mr. Lawrence was unwilling or
unable to learn the lesson the Board of Law
Examiners attempted to teach him. Within days of
receiving the Board’s 2006 decision, Mr. Lawrence
sent a letter to the Michigan Civil Rights Commission,
accusing one of the Board members of racism. In his
hearing before this Court, Mr. Lawrence stated that
he took these actions to generate “standing and
ripeness” so he could file a lawsuit. (Hr’g Tr. at 27,
ECF No. 4, PageID.81 see also id. at 28, PageID.82
(“[The actions] . . . allow[ed] me to claim that I had
engaged in criticism of Michigan licensing officials and
this criticism would be the basis of future character
rejections.”)).19
It appears that there has been few, if any, bar
officials who, having crossed his path, have escaped
18

Curiously, while Mr. Lawrence advised the Court during
his December 13, 2017, hearing that he took a number of
provocative actions against State Bar officials purposely to
generate lawsuits, he claimed in a previous pleading that he took
down his website, statebarwatch, “because his rights were chilled
to such an extent that [he] was afraid to further engage in
criticism of . . . the [Board] and the State Bar of Michigan.”
Amend. Compl. ¶ 22, Lawrence v. Raubinger, Case No. 1:10-cv467, ECF No. 19, PageID.202 (W.D. Mich.).

57a

Mr. Lawrence’s personal attacks. It is equally clear,
that Mr. Lawrence is willing to make unsubstantiated
allegations of misconduct against those whose
decisions he dislikes. This is contrary to the
professional conduct expected of those admitted to
practice in this Court.
Mr. Lawrence apparently believes that he can
say and do anything he wants, as long as he wraps
himself in the First Amendment. (See Hr’g Tr. at 23,
ECF No. 4, PageID.77) (“I believe that before someone
is denied character and fitness a determination needs
to be made whether the conduct is constitutionally
protected, and if it is, the matter ends.”). The relevant
issue here is not whether he or any other lawyer
enjoys a First Amendment right to freedom of speech –
of course he does. The Court is not concerned with his
views about the process of obtaining a license to
practice law in the State of Michigan, nor his views
about any of the officials involved in that process. The
Court is concerned, however, with the manner in
which he addressed his grievances with those officials.
Mr. Lawrence has a tendency to attack decision
makers whose decisions he does not like, both with
respect to the State Bar and the Judiciary. He has
continued that pattern with his recent spurious
allegations against this Court’s Chief Judge, who
simply asked for additional information relevant to
this application for admission. Mr. Lawrence also
inaccurately and unfairly characterized Judge
Maloney’s recent handling of a case Mr. Lawrence has
pending in this Court. (See Mtn. Recon. at 3-4, ECF
No. 3, PageID.24-25).

58a

In response to the Court’s question as to why it
should conclude that he has sufficiently good
judgment to be admitted to practice in light of all his
prior misconduct, Mr. Lawrence stated: “What I can
tell you is I am not the same person. I have grown
older and wiser and slower, and I’ve developed an
appreciation for respect and an appreciation for
resolving things amicably without turning it into a big
deal.” (Hr’g Tr. at 45, PageID.99). But his actions
speak louder than his words. His assurances of being
a changed man are simply not credible.
Mr. Lawrence has a long history of engaging in
inappropriate and unprofessional conduct that
reflects, at the very least, very poor judgment. He has
not yet demonstrated that he fully understands the
error of his ways; much less has he shown a true
commitment to change them. Accordingly, the Court
“is not satisfied that he possesses good private and
professional character.” In re G.L.S., 745 F.2d 856, 859
(4th Cir. 1984). Nor is he “qualified to be entrusted
with professional matters and to aid in the
administration of justice as an attorney and officer of
the Court.” W.D. MICH. LCIVR 83.1(c)(ii).
Conclusion and Order
Inasmuch as there is no basis to find that the
Chief Judge deviated from the District’s Local Rules,
and given that Ms. Mankin has no information
relevant to his application for admission, Mr.
Lawrence’s motion for reconsideration (ECF No. 3) is
DENIED.

59a

Further, and for the reasons stated herein, his
Petition for Admission to practice before the Western
District of Michigan (ECF No. 1-2) is DENIED.
IT IS FURTHER ORDERED that Mr.
Lawrence is prohibited from reapplying for admission
to this Court for a period of three years.
February 2, 2018

/s/Janet T. Neff
JANET T. NEFF
United States District Judge
/s/Scott W. Dales
SCOTT W. DALES
Chief United States
Bankruptcy Judge
/s/Phillip J. Green
PHILLIP J. GREEN
United States Magistrate
Judge

60a

APPENDIX C
No. 18-1131
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
February 19, 2019
In Re: FRANK J. LAWRENCE, JR.,
Petitioner-Appellant.
ORDER
BEFORE: COLE, Chief Judge; SUHRHEINRICH and
MOORE, Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

61a

